                 The Collection Field Function Needs to
               Improve Case Actions to Prevent Employers
                From Incurring Additional Trust Fund Tax
                               Liabilities

                                 September 2005

                       Reference Number: 2005-30-142




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  September 21, 2005


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - The Collection Field Function Needs to
                                    Improve Case Actions to Prevent Employers From Incurring
                                    Additional Trust Fund Tax Liabilities (Audit # 200430019)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Trust Fund Tax Liabilities. The overall objective of this review was to determine
      whether the Small Business/Self-Employed (SB/SE) Division Collection Field function
      (CFf) was effectively using the collection tools available when working cases in which
      trust fund1 taxpayers pyramided2 their tax liabilities.
      In summary, employers use the Employer’s Quarterly Federal Tax Return (Form 941) to
      file and establish the tax liability for trust fund taxes. Advance payments made for these
      taxes are called Federal Tax Deposits (FTD).3 The large number of in-business
      taxpayers who repeatedly pyramid trust fund taxes is a major compliance problem for
      the IRS. As of March 31, 2005, employers owed the IRS approximately $10.64 billion on
      delinquent trust fund accounts. Addressing employment tax noncompliance by
      expanding trust fund programs and implementing related strategies was a priority for the
      SB/SE Division in Fiscal Year (FY) 2004 and continues to be emphasized in FY 2005.
      Per IRS procedures, successful resolution of delinquent trust fund taxpayer cases



      1
        A trust fund tax is money withheld from an employee’s wages (income, Social Security, and Medicare taxes) by an
      employer and held in trust until paid to the United States Department of the Treasury.
      2
        Pyramiding involves the incurring of future additional tax liabilities.
      3
        FTDs are advance payments made for the trust fund taxes. Generally, these payments are made once a month,
      twice a month, four times a month, or eight times a month, depending upon the amount of the quarterly liability and
      frequency of the payroll.
      4
        National Collection 5000-2 Reports – Taxpayer Delinquent Account Cumulative Report as of March 31, 2005.
                                                        2

requires early intervention by the CFf and effective and timely actions to prevent
taxpayers from pyramiding.
To meet our objective, we selected and reviewed a sample of 223 cases to determine
whether appropriate collection actions were timely taken. When we selected our
sample (as of April 15, 2004) from SB/SE Division cases, there were 101,698 trust fund
cases open in the CFf, with a total outstanding balance of approximately $5 billion. The
population from which we selected our sample included 11,375 cases that met the
following criteria: had been open for 1.5 to 2.5 years, had liabilities greater than
$10,000, had 2 or more open delinquent accounts, and involved in-business taxpayers.
The total outstanding balance on these 11,375 cases was approximately $972 million.
This was approximately 11 percent of the entire CFf open trust fund case inventory as
of April 15, 2004.
While our sample included only older cases, the majority of the cases (79 percent) in
the CFf open inventory at that time were fewer than 15 months old. As a result, our
sample of 223 cases was not representative of the entire trust fund case work of the
CFf. Our sample was representative of the most delinquent taxpayer cases.
We determined revenue officers (RO) took some actions that were effective. For
example, they conducted effective initial contacts, performed compliance checks, and
requested immediate filing and full payment of all delinquent accounts. However,
improvements are needed for ROs to take timely actions and use appropriate
enforcement tools to help prevent taxpayers from pyramiding additional tax liabilities.
Our review of a statistically valid sample of 223 in-business trust fund (IBTF) taxpayers
showed that, once ROs were assigned cases, they did not make timely initial contact in
92 (41 percent) cases. In addition, the ROs did not timely follow up in 50 percent of the
cases in which taxpayers missed specific deadlines, thus allowing the taxpayers to
procrastinate more. Further, we identified lapses in actions of 75 days or more
throughout the investigation in 121 (54 percent) cases, thus delaying case resolution.
Our review also showed that FTDs were required in 206 of the 223 cases. ROs did not
request current FTDs on initial contact with the taxpayers in 77 (37 percent) of the
206 cases. In 63 (31 percent) of the 206 cases, the ROs did not monitor FTDs
throughout the investigation. Finally, some type of enforcement action was required
in 211 of the 223 cases (12 cases did not require enforcement actions.). In 5 of the
211 cases, enforcement actions were not used, and in the remaining 2065 cases,
additional enforcement actions could have been taken and were not in 91 (44 percent)




5
  These 206 cases are not necessarily the same as the 206 cases mentioned previously related to FTDs, although
there are some of the same cases in both.
                                                          3

cases. For example, ROs could have used a levy, summons, Letter 903 (DO),6 and/or
Trust Fund Recovery Penalty interview in those cases.7
FY 2004 CFf Operational reviews by the SB/SE Division Headquarters Office and the
Collection Quality Measurement System8 reviews identified issues similar to those we
identified during this audit. For example, they identified problems related to initial and
follow-up actions, enforcement actions, activity lapses, and/or monitoring of FTDs
(pyramiding). To identify ways to improve procedures for dealing with IBTF cases, the
SB/SE Division has implemented several strategies including the collection
reengineering process.9 As a result, revisions are being made in the compliance
process and appear to be contributing to positive business results, such as an increase
in case productivity and dollars collected and a reduction of delinquent accounts cycle
time.
We recommended the Director, Collection, emphasize and monitor the use of
Letter 903 (DO), closely monitor new management accountability requirements and
efforts to ensure there is more managerial involvement in cases at all management
levels, emphasize that ROs need to do a better job of following through on their plans of
action, and ensure both ROs and managers better use the Integrated Collection System
(ICS)10 features for timely follow-ups and monitoring of older cases for which
enforcement actions are necessary.
Management’s Response: The Commissioner, SB/SE Division, agreed with our
recommendations. SB/SE Division management prepared the following training
courses to be delivered as part of the FY 2005 Collection Continuing Professional
Education: in-business trust fund pyramiding prevention techniques for ROs with an
emphasis on the appropriate issuance of the Letter 903 (DO) and use of the trust fund
compliance procedures, workload management for ROs with an emphasis on following
through on their plans of action, and workload management for ROs with an emphasis
on using the systemic notification follow-up feature within ICS to more effectively
monitor their cases for follow-up. They also will coordinate with the Modernization and
Information Technology Services organization to develop a process to systemically
monitor the use of Letter 903 (DO). Finally, FY 2006 Operational Reviews conducted
by the Director, Collection, will include a component that specifically evaluates
adherence to the review requirements for in-business trust fund and pyramiding cases


6
  Letter 903 (DO) alerts a taxpayer of the seriousness of noncompliance and explains more fully the alternatives that
can be taken if the taxpayer is still not in compliance with the trust fund tax requirements.
7
  The Trust Fund Recovery Penalty is a penalty that may be assessed against any person who is responsible for
collecting or paying withheld income and employment taxes, or for paying collected excise taxes, and willfully fails
to collect or pay them.
8
  The Collection Quality Measurement System is designed to monitor, through a sample of closed cases, crucial
aspects of an RO’s job performance. Closed case files are reviewed to measure the organizational performance.
9
  This process was designed to improve workload selection and case work quality and to reduce cycle time.
10
   The ICS is an automated system used to control and monitor delinquent cases assigned to ROs in the IRS field
offices.
                                           4

that have been established in the Internal Revenue Manual. Management’s complete
response to the draft report is included as Appendix VI.
Office of Audit Comment: SB/SE Division management agreed with the
recommendations and plans to take appropriate corrective actions; however, they
commented they could not measure the future value of the potential benefit. We and
SB/SE Division management agree that additional liabilities may not all accrue and the
resulting balance due amounts may not be collected because it is likely that some of the
taxpayers will be unable to fully pay. However, ineffective actions on cases were
allowing taxes to pyramid throughout the population at the time of our review and the
amount projected is reasonable. Therefore, we did not adjust the potential outcome
measures in this report.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-3837.
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities




                                                  Table of Contents


Background ............................................................................................... Page 1
The Collection Field Function Effectively Used Certain Collection
Tools While Working Cases ...................................................................... Page 3
The Collection Field Function Needs to Take More Timely
Actions and Improve Its Use of Certain Collection Tools........................... Page 4
         Recommendations 1 through 3:.....................................................Page 13
         Recommendation 4: .......................................................................Page 14

Management Monitoring and Implementation of Changes Appear to
Have Had a Positive Effect on Business Results ...................................... Page 14
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 17
Appendix II – Major Contributors to This Report ....................................... Page 19
Appendix III – Report Distribution List ....................................................... Page 20
Appendix IV – Outcome Measures............................................................ Page 21
Appendix V – Additional Definitions of Collection Tools and Actions ........ Page 22
Appendix VI – Management’s Response to the Draft Report .................... Page 23
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                 Collection principles state that public trust requires the
Background
                                 Internal Revenue Service (IRS) to ensure all taxpayers
                                 promptly file their returns and pay the proper amount of tax,
                                 regardless of the amount owed. IRS employees should
                                 work with taxpayers to meet all their filing and paying
                                 requirements. This involves identifying and addressing
                                 noncompliance to prevent future delinquencies.
                                 Per IRS procedures, the collection process begins with a
                                 series of delinquency notices or bills mailed to a taxpayer
                                 when the taxpayer does not file or pay taxes due. When the
                                 taxpayer fails to respond within a specified period of time, a
                                 delinquent return or a balance due account is generated.
                                 Generally, the IRS attempts to contact the taxpayer by
                                 telephone at this point. However, there are some priority
                                 cases that are assigned directly to the Collection Field
                                 function (CFf), where a revenue officer (RO) attempts
                                 face-to-face contact with the taxpayer. Once a delinquent
                                 account is assigned, the RO conducts an investigation to
                                 determine what collection procedures and enforcement
                                 actions should be used to bring the taxpayer into full
                                 compliance. From a broad range of collection tools, ROs
                                 select the one(s) most appropriate for each case. ROs
                                 attempt to obtain full payment and can use enforcement
                                 tools such as liens, levies, and seizure of assets when
                                 taxpayers do not attempt to comply.1 The IRS recognizes
                                 that these collection tools are important elements of an
                                 effective compliance program; therefore, when appropriate,
                                 these actions should be taken promptly.
                                 Employers use the Employer’s Quarterly Federal Tax
                                 Return (Form 941) to file and establish the tax liability for
                                 trust fund taxes.2 Employers with tax liabilities over a
                                 certain amount are required to make Federal Tax Deposits
                                 (FTD).3


                                 1
                                   For definitions of collection tools and actions, see Appendix V.
                                 2
                                   A trust fund tax is money withheld from an employee’s wages
                                 (income, Social Security, and Medicare taxes) by an employer and held
                                 in trust until paid to the Department of the Treasury.
                                 3
                                   FTDs are advance payments made for the trust fund taxes. Generally,
                                 these payments are made once a month, twice a month, four times a
                                 month, or eight times a month, depending upon the amount of the
                                 quarterly liability and frequency of the payroll.
                                                                                               Page 1
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                 Employees who have taxes withheld from their wages
                                 expect the funds to be properly deposited and credited to
                                 their accounts, and employers expect compliance by their
                                 competitors. IRS procedures state that successful resolution
                                 of delinquent trust fund taxpayer cases requires early
                                 intervention by the CFf and effective and timely actions to
                                 prevent taxpayers from incurring future additional tax
                                 liabilities (pyramiding).
                                 The large number of in-business taxpayers who repeatedly
                                 pyramid trust fund taxes (known as repeaters) continues to
                                 be a major compliance problem for the IRS. As of
                                 March 31, 2005, employers owed the IRS approximately
                                 $10.6 billion4 on delinquent trust fund accounts.
                                 Addressing employment tax noncompliance by expanding
                                 trust fund programs and implementing related strategies was
                                 an operational priority for the Small Business/
                                 Self-Employed (SB/SE) Division in Fiscal Year (FY) 2004.
                                 The FY 2004 Program Letter placed emphasis on the
                                 importance of monitoring trust fund deposits, monitoring
                                 filing and payment requirements on delinquent accounts,
                                 and taking appropriate steps to address taxpayers who incur
                                 additional tax liabilities. In FY 2005, the SB/SE Division
                                 continued to place emphasis on trust fund cases. The
                                 FY 2005 Program Letter also emphasized case work
                                 productivity by focusing on effective and appropriate case
                                 and enforcement actions, addressing enforcement
                                 boundaries, and assessing the effectiveness and need for
                                 various requirements.
                                 In FY 2000, the Treasury Inspector General for Tax
                                 Administration (TIGTA) issued an audit report5 about
                                 in-business trust fund (IBTF) taxpayer cases worked in the
                                 CFf. We determined that, although some actions were
                                 effective, improvement was needed in taking more timely
                                 actions on cases, taking more enforcement actions, and
                                 assigning cases more timely. Our current FY 2005 audit’s
                                 main emphasis was to follow up on the prior audit and

                                 4
                                   National Collection 5000-2 Reports – Taxpayer Delinquent Account
                                 Cumulative Report as of March 31, 2005.
                                 5
                                   Improvements Are Needed in Resolving In-Business Trust Fund
                                 Delinquencies to Prevent Tax Liabilities from Pyramiding (Reference
                                 Number 2000-30-111, dated August 2000).
                                                                                               Page 2
 The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                       Incurring Additional Trust Fund Tax Liabilities

                                  determine if available collection tools are being effectively
                                  used when appropriate. We concentrated our audit work on
                                  the most egregious taxpayer cases: taxpayers with
                                  delinquent tax liabilities who continue to pyramid their
                                  liabilities while the cases are open. Therefore, the results of
                                  this review are not representative of the overall case work
                                  performed by the CFf.
                                  This review was performed at the SB/SE Division
                                  Collection function in New Carrollton, Maryland, during the
                                  period June 2004 through April 2005. The audit was
                                  conducted in accordance with Government Auditing
                                  Standards. Detailed information on our audit objective,
                                  scope, and methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  We reviewed 223 open IBTF cases. These cases were a
The Collection Field Function
                                  statistical nationwide sample of Integrated Collection
Effectively Used Certain
                                  System (ICS) 6 cases that had been open since sometime in
Collection Tools While Working
                                  Calendar Year (CY) 2002 and had pyramided during
Cases
                                  CY 2003 through April 2004.
                                  When we selected our sample (as of April 15, 2004) from
                                  SB/SE Division cases, there were 101,698 trust fund cases
                                  open in the CFf, with a total outstanding balance of
                                  approximately $5 billion. The population from which we
                                  selected our sample included 11,375 cases that had been
                                  open for 1.5 to 2.5 years, had liabilities greater than
                                  $10,000, had 2 or more open delinquent accounts, and
                                  involved in-business taxpayers. The total outstanding
                                  balance on these 11,375 cases was approximately
                                  $972 million. This was approximately 11 percent
                                  of the entire CFf open trust fund case inventory as of
                                  April 15, 2004. While our review focused on older cases,
                                  the majority of the cases (79 percent) in the CFf open
                                  inventory at that time were fewer than 15 months old.
                                  As a result, our sample of 223 cases was not representative
                                  of the entire trust fund case work of the CFf. Our sample
                                  was representative of the most delinquent taxpayer cases.
                                  Our audit scope was designed to identify cases that had been
                                  open after December 2001 and before January 2003 and had

                                  6
                                   The ICS is an automated system used to control and monitor
                                  delinquent cases assigned to ROs in the IRS field offices.
                                                                                                Page 3
 The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                       Incurring Additional Trust Fund Tax Liabilities

                                  pyramided additional liabilities. Our goal was to determine
                                  if all applicable collection tools were used to resolve these
                                  types of cases.
                                  Our review of the 223 cases showed that, overall, ROs
                                  effectively used certain collection tools/actions. The cases
                                  were timely assigned to the ROs who conducted effective
                                  initial contacts. For example, ROs took proper actions such
                                  as performing a compliance check, determining the current
                                  status of the delinquent account, and requesting immediate
                                  filing and full payment of all delinquent accounts. In most
                                  cases, the ROs attempted to secure sufficient information,
                                  when appropriate, to make an ability-to-pay determination.
                                  When taxpayers were required to take actions, the ROs
                                  ensured the taxpayers fully understood what was expected
                                  and when and warned of specific consequences for not
                                  complying with the requests.
                                  In addition, some taxpayers complied on certain cases when
                                  ROs took effective actions. For example, some taxpayers
                                  became current with FTDs when ROs monitored the FTDs
                                  regularly. Also, when Letter 903 (DO)7 was issued to
                                  taxpayers, some taxpayers changed their filing and paying
                                  behavior by becoming current or going out of business and
                                  therefore no longer pyramiding.
                                  Although our review showed that ROs took certain effective
The Collection Field Function     actions, improvements are needed in taking timely actions
Needs to Take More Timely         on cases and using enforcement tools to potentially prevent
Actions and Improve Its Use of    taxpayers from pyramiding.
Certain Collection Tools
                                  The CFf needs to improve the timeliness of actions and
                                  follow-ups
                                  Although ROs took effective actions at initial interviews,
                                  they did not always make timely initial contacts. IRS
                                  procedures require that, once a new IBTF case is assigned,
                                  the RO must make an initial contact within 30 calendar days
                                  for taxpayers with prior delinquencies (repeaters) and

                                  7
                                    Letter 903 (DO) alerts a taxpayer of the seriousness of noncompliance
                                  and explains more fully the alternatives that can be taken if the taxpayer
                                  is still not in compliance with the trust fund tax deposit and filing
                                  requirements.


                                                                                                    Page 4
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                 45 days for all others. ROs did not make timely initial
                                 contact in 92 (41 percent) of the 223 cases we reviewed.
                                 The range of days for the initial contact in these cases was
                                 46 to 686, with a median of 80 days.8
                                 Not only did delays occur in initial contact, they also
                                 occurred in actions throughout the investigation. When a
                                 taxpayer needs to take actions such as filing a return,
                                 providing information, or paying the balance due, IRS
                                 procedures require the assigned RO to set a deadline for
                                 when the action is expected and to warn the taxpayer of the
                                 consequence if he or she fails to comply timely. In addition,
                                 when the taxpayer misses a specific deadline, the RO should
                                 follow up within 10 days. Generally, the ROs set timely
                                 deadlines for taxpayer actions and informed them of the
                                 consequences for not complying. However, they did not
                                 timely follow up. In 174 (80 percent) of the 218 cases in
                                 which ROs had set deadlines, taxpayers did not perform
                                 required actions by the deadline date. In 87 (50 percent) of
                                 these 174 cases, ROs did not perform timely follow-ups,
                                 thus allowing the taxpayers to procrastinate more. The
                                 following examples are based on two cases with untimely
                                 follow-up actions.
                                 •   The RO sent an appointment letter to conduct the initial
                                     contact. Over the next 10 months, the taxpayer did not
                                     comply with the initial request and missed 5 other
                                     deadlines such as appointment dates, partial payments,
                                     and filing of delinquent returns. The RO talked with the
                                     taxpayer over the telephone each time, set new
                                     deadlines, and warned the taxpayer of consequences
                                     including the issuance of a levy. However, on four
                                     occasions, the RO did not make timely follow-ups, such
                                     as taking applicable enforcement actions. During this
                                     time, the taxpayer made some partial payments;
                                     however, the taxpayer did not make FTDs and was not
                                     in compliance. As a result, the taxpayer pyramided
                                     7 additional liabilities during the 2 years the case had
                                     been open.

                                 8
                                   We took a conservative approach to this analysis and used a 45-day
                                 criterion on all cases, although there were repeater cases in our sample
                                 that had untimely contact between 30 and 45 days after assignment to
                                 the RO.
                                                                                                   Page 5
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                 •   At the initial contact, the RO established a plan of action
                                     with the taxpayer to pay the account and get into
                                     compliance. In addition, the RO set deadlines and
                                     warned the taxpayer of consequences. Over the next
                                     18 months, the RO did not take any follow-up actions.
                                     Finally, after the taxpayer missed many other deadlines,
                                     the RO took enforcement actions including filing liens
                                     and issuing levies. As a result, the taxpayer finally
                                     complied with prior requests for financial information
                                     and delinquent returns. The taxpayer pyramided
                                     8 additional liabilities during the 2 years the case had
                                     been open.
                                 In the above examples, the ROs should have taken
                                 immediate enforcement actions after the taxpayers missed
                                 the deadlines. The ROs needed to timely follow the
                                 established plans of action, instead of setting new deadlines
                                 that allowed the taxpayers to procrastinate and pyramid
                                 additional liabilities.
                                 In addition to untimely follow-up actions, there were overall
                                 lapses in actions throughout the investigations, which
                                 resulted in a longer time to resolve the cases. The
                                 Collection Quality Measurement System (CQMS)9
                                 standards define activity lapses as 75 days or more. Of the
                                 223 cases in our review, 121 (54 percent) had 186 delays of
                                 75 days or more. Table 1 provides a detailed breakdown of
                                 the range of delay days for the 121 cases. (A taxpayer case
                                 could have more than one delay).




                                 9
                                   The CQMS is designed to monitor, through a sample of closed cases,
                                 crucial aspects of an RO’s job performance. Closed case files are
                                 reviewed to measure the organizational performance.
                                                                                               Page 6
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                        Table 1: Time Lapses Throughout the Investigation

                                      Range of Delay Days         Number of Occurrences

                                             75 – 100                        77
                                            101 – 125                        32
                                            126 – 150                        16
                                            151 –175                         21
                                            176 – 200                        15
                                           201 or more                       25
                                              Total                         186
                                   Source: TIGTA review of 223 cases.

                                 Some reasons given in the case histories for the delays were
                                 case reassignments to other ROs, ROs working other
                                 priority cases, and ROs on leave or in training. However,
                                 most of the time (69 percent of the delays), the reasons for
                                 delay were not documented.
                                 The CFf needs to improve the monitoring of FTDs and
                                 its use of enforcement actions
                                 ROs did not always request and monitor FTD payments
                                 Generally, taxpayers are required to make FTD payments
                                 once a month, twice a month, four times a month, or eight
                                 times a month, depending upon the amount of the quarterly
                                 liability and the frequency of payroll. When a taxpayer is
                                 identified as a potential repeater, pyramiding must be
                                 stopped immediately according to IRS procedures. To
                                 reduce the number of repeaters, the RO should request the
                                 current FTDs from the date of the first contact and should
                                 continue monitoring FTDs throughout the investigation.
                                 Our review showed that FTDs were required in 206 of the
                                 223 cases. ROs did not request current FTDs on initial
                                 contact with the taxpayers in 77 (37 percent) of the
                                 206 cases. In 63 (31 percent) of the 206 cases, the ROs did
                                 not monitor FTDs throughout the investigation. This was a
                                 primary reason why the taxpayers continued to pyramid
                                 trust fund taxes in 95 percent of these 63 cases.

                                                                                            Page 7
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                 In addition, we determined whether taxpayers were still
                                 liable for FTDs and whether they were current as of the
                                 dates10 of our case review. We determined that, of the
                                 163 taxpayers still liable for FTDs, approximately
                                 50 percent were not current.
                                 ROs can improve their use of enforcement tools
                                 IRS procedures state an RO should demand immediate
                                 filing of delinquent returns and full payment of all
                                 delinquent accounts when he or she meets with a taxpayer.
                                 If the taxpayer is unable to comply, the RO should secure a
                                 collection information statement or basic asset information,
                                 such as bank accounts and real or personal property owned,
                                 to make a lien determination. This enables the RO to take
                                 enforcement actions, when appropriate.
                                 Enforcement actions should be taken early in the
                                 investigation when applicable and may prompt a repeater
                                 taxpayer to comply or respond to the RO’s requests. ROs
                                 can take several types of enforcement actions to help protect
                                 the Federal Government’s interests: liens, levies on a
                                 delinquent taxpayer’s assets including bank accounts and
                                 accounts receivables, summonses to legally obtain a
                                 taxpayer’s records, and seizures of a taxpayer’s properties.
                                 Of the 223 cases, 211 cases required enforcement actions
                                 (12 cases did not require enforcement actions). In 5 cases,
                                 no enforcement actions were taken. In the remaining
                                 20611 cases, some type of enforcement action was used,
                                 such as liens were filed when appropriate. However, in
                                 91 (44 percent) of the 206 cases, additional enforcement
                                 actions could have been taken and were not. The following
                                 are some examples:
                                 •    Levy – A levy is generally used to obtain funds due to a
                                      taxpayer that are being held by a third party. Some
                                      examples of property are a taxpayer’s bank accounts,
                                      wages, or accounts receivables. Although a levy was
                                      used in 113 (51 percent) cases, it could have been used


                                 10
                                    The dates of the case review were from August 2004 through
                                 February 2005.
                                 11
                                    These 206 cases are not necessarily the same as the 206 cases
                                 mentioned on page 7, although there are some of the same cases in both.
                                                                                                Page 8
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                      as a collection tool in an additional 35 (16 percent)
                                      cases.12 For example, a levy is appropriate when a
                                      taxpayer has a history of delinquency, is not showing an
                                      effort to pay the delinquent taxes, and is not paying
                                      current taxes.
                                 •    Summons – The RO should issue a summons only
                                      when a taxpayer will not produce the desired records or
                                      other information voluntarily. It allows the RO to
                                      request legal enforcement through a court of law if the
                                      taxpayer fails to fully comply. Although a summons
                                      was used in 54 (24 percent) cases, it could have been
                                      used as a tool in an additional 27 (12 percent) cases. For
                                      example, use of a summons is appropriate to get a
                                      financial statement from a taxpayer who is not
                                      complying with the RO’s request.
                                 •    Letter 903 (DO) – Letter 903 (DO) is used for the most
                                      egregious cases in which taxpayers are not complying,
                                      other collection procedures have already been
                                      unproductive, and the taxpayer continues to pyramid
                                      liabilities. Letter 903 (DO) begins the process of
                                      requiring monthly filing and special bank deposits. If
                                      those deposits are not made, the taxpayer is subject to
                                      criminal prosecution.
                                      Historically, the CFf has made little use of this
                                      enforcement tool. In FY 2000, our prior audit results
                                      showed that ROs generally did not use the
                                      Letter 903 (DO). As part of their corrective actions
                                      to recommendations in our report, IRS management
                                      conducted a project to increase the use of
                                      Letter 903 (DO). Our current review of 223 cases
                                      showed that ROs used the Letter 903 (DO) in
                                      9 cases (4 percent). In some of these cases, the Letter
                                      had a positive effect on the taxpayer because the
                                      taxpayer became current or went out of business and no
                                      longer incurred new tax liabilities. While use of the
                                      Letter 903 (DO) had improved since our prior review,
                                      we determined the Letter could have been used in an


                                 12
                                   For these 35 cases, taxpayers had been provided their Collection Due
                                 Process rights and the RO stated levy action was an appropriate next
                                 action.
                                                                                                Page 9
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                      additional 19 (9 percent) cases in our current review. In
                                      other words, a Letter 903 (DO) was appropriate in
                                      28 cases, but it was used in only 9 (32 percent) of the
                                      cases.
                                      Use of a Letter 903 (DO) is appropriate when a taxpayer
                                      is not current with FTDs; the taxpayer continues to
                                      pyramid liabilities although the RO has used a lien, levy,
                                      and summons; and use of a seizure is not applicable. In
                                      this type of situation, use of a Letter 903 (DO) would
                                      have been appropriate to get the taxpayer to deposit
                                      currently due trust fund taxes or to require the taxpayer
                                      to make future monthly deposit arrangements in an
                                      attempt to stop the pyramiding.
                                 •    Trust Fund Recovery Penalty (TFRP) – The TFRP is
                                      equal to the unpaid balance of the trust fund tax and is
                                      assessed against any responsible person required to
                                      collect, account for, and pay over the trust fund taxes
                                      such as an officer of a corporation. IRS procedures
                                      require a TFRP interview with all potential responsible
                                      persons to be initiated when the taxpayer cannot fully
                                      pay the liability. It is intended to secure detailed
                                      information to determine the responsibility and
                                      willfulness of the responsible person. Out of the
                                      166 taxpayers in our sample for whom a TFRP
                                      interview was applicable, ROs did not initiate or conduct
                                      the TFRP interview on 47 (28 percent) cases.
                                 Various factors contributed to the ineffective case
                                 actions
                                 First, SB/SE Division management informed us that some
                                 residual issues exist relating to implementation of the IRS
                                 Restructuring and Reform Act of 1998 (RRA 98).13 In their
                                 opinion, ROs encounter or perceive that process and
                                 procedural barriers exist when they attempt to take
                                 necessary actions, which in turn lead to delays in case
                                 activity. The RRA 98 provides for removal of employees
                                 under certain conditions. In our prior review, we also
                                 determined that this contributed to actions not being

                                 13
                                   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                 sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C, 22 U.S.C.,
                                 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                               Page 10
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                 effectively taken. The IRS recently initiated an independent
                                 survey to attempt to identify the extent of this concern.
                                 Second, based on information from SB/SE Division
                                 management, collection basics need to be reinforced. They
                                 believe some ROs may be confused over the appropriate
                                 next steps in case activity, including enforcement actions,
                                 and do not understand enforcement action boundaries. We
                                 identified similar issues in our case reviews that showed
                                 ROs are hesitant to follow through with warnings given to
                                 taxpayers and, therefore, allow taxpayers to procrastinate.
                                 In addition, there are many times when enforcement actions
                                 were appropriate but not used. (See results in the prior
                                 Timely Follow-Up and Enforcement sections.) ROs may
                                 not be frequently using the benefit of the follow-up feature
                                 within the ICS to help ensure timely actions. Although
                                 cases assigned to the ROs are based on their experience
                                 level and the difficulty of the case and inventory levels are
                                 managed by group managers, the ROs are not using all the
                                 collection procedures to help ensure quality work on cases.
                                 Finally, prior to FY 2005, the SB/SE Division was not
                                 organizationally set up to have the Collection function
                                 operate as a separate function. Territory managers and Area
                                 Office directors were responsible for both the Examination
                                 and Collection functions and may have had no Collection
                                 function experience.14 Therefore, a direct chain of
                                 command for Collection function management from the
                                 group manager level through the executive level did not
                                 always exist, and many managers did not have the
                                 background to manage a Collection function. SB/SE
                                 Division Headquarters executives believed this potentially
                                 caused a lack of managerial accountability for Collection
                                 function activities. In early FY 2005, RO group managers
                                 began reporting to Collection function Territory managers,
                                 who report to Collection function Area Office directors.




                                 14
                                   The field offices for the SB/SE Division are called Area Offices and
                                 Area directors are the heads of those offices. Territory managers are the
                                 second-line managers that report to the Area directors and generally
                                 oversee a few Collection function groups.
                                                                                                 Page 11
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                 Ineffective case actions resulted in the pyramiding of
                                 millions of dollars of new tax liabilities
                                 Untimely initial contacts delay an RO from requesting the
                                 immediate filing and full payment of all delinquent
                                 accounts. These also delay the demand of current FTDs,
                                 which allows a taxpayer to continue to pyramid trust fund
                                 taxes.
                                 Untimely follow-ups and delays in action cause the cases to
                                 remain open longer than necessary, which could also affect
                                 customer satisfaction. These untimely actions, together with
                                 not using available collection tools such as monitoring
                                 FTDs and enforcement actions, prevent ROs from stopping
                                 pyramiding and ensuring taxpayers are in compliance with
                                 the filing and payment of trust funds taxes.
                                 Although ROs collected $5.1 million while working the
                                 223 cases, a larger amount in additional tax liabilities
                                 ($8.7 million) pyramided from the time these cases were
                                 assigned to the CFf. The taxpayers pyramided
                                 approximately $1.7 million in trust fund taxes between
                                 assignment to CFf and the initial contact and the remainder
                                 after the initial contact. In fact, there was an aggregate
                                 outstanding liability of $17.7 million still remaining on
                                 these cases at the time of our review. When the cases first
                                 came into the CFf, their balance of taxes owed was
                                 $14.4 million.15
                                 We estimate it is possible that approximately $430 million16
                                 could have pyramided if ROs did not take effective actions
                                 to keep taxpayers from pyramiding on similar cases in our
                                 population. While we recognize effective actions could not
                                 have prevented all of the $430 million from pyramiding, a
                                 substantial portion could have been prevented if the ROs
                                 had used timely and effective case actions. See
                                 Appendix IV for additional information.

                                 15
                                    The $14.4 million minus $5.1 million collected plus $8.7 million
                                 accrued does not exactly equal to the $17.7 outstanding balance because
                                 we did not include in the $5.1 million payments made to the IRS that
                                 were not made through the ROs or credit transfers into the taxpayers’
                                 accounts.
                                 16
                                    This projection is potential accruals, all of which may not be accrued.
                                 In addition, not all of this projected amount would be collected due to
                                 taxpayer behavior that is out of the control of the RO.
                                                                                                  Page 12
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                 Recommendations

                                 The Director, Collection, SB/SE Division, should:
                                 1. Emphasize and monitor use of the Letter 903 (DO) to
                                    determine how to increase its use when applicable.
                                 Management’s Response: SB/SE Division management
                                 prepared a training course on in-business trust fund
                                 pyramiding prevention techniques for ROs with an
                                 emphasis on the appropriate issuance of Letter 903 (DO)
                                 and use of the trust fund compliance procedures. They are
                                 delivering this training during August and September 2005
                                 as part of FY 2005 Collection Continuing Professional
                                 Education (CPE) for ROs. They also will coordinate with
                                 the Modernization and Information Technology Services
                                 organization to develop a process to systemically monitor
                                 the use of Letter 903 (DO).
                                 2. Closely monitor new requirements for management
                                    accountability and activity in case actions to ensure
                                    managerial involvement at all levels is occurring as
                                    planned. (See the following section regarding new
                                    procedures for management accountability and
                                    involvement.)
                                 Management’s Response: FY 2006 Operational Reviews
                                 conducted by the Director, Collection, will include a
                                 component that specifically evaluates adherence to the
                                 review requirements for in-business trust fund and
                                 pyramiding cases that have been established in Internal
                                 Revenue Manual exhibits 1.4.50-8 and 1.4.50-9.
                                 3. Emphasize that ROs need to do a better job of following
                                    through on their plans of action.
                                 Management’s Response: SB/SE Division management
                                 prepared training on workload management for ROs with an
                                 emphasis on following through on their plans of action.
                                 They are delivering this training during August and
                                 September 2005 as part of FY 2005 Collection CPE for
                                 ROs.




                                                                                      Page 13
  The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                        Incurring Additional Trust Fund Tax Liabilities

                                   4. Ensure ROs and managers better use ICS features for
                                      timely follow-ups and monitoring of older cases for
                                      which enforcement actions are needed.
                                   Management’s Response: SB/SE Division management
                                   prepared training on workload management for ROs with an
                                   emphasis on using the systemic notification follow-up
                                   feature within ICS to more effectively monitor their cases
                                   for follow-up. They are delivering this training during
                                   August and September 2005 as part of FY 2005 Collection
                                   CPE for ROs.
                                   Office of Audit Comment: SB/SE Division management
                                   agreed with the recommendations and plans to take
                                   appropriate corrective actions; however, they commented
                                   that they could not measure the future value of the potential
                                   benefit. We and SB/SE Division management agree that
                                   additional liabilities may not all accrue and the resulting
                                   balance due amounts may not be collected because it is
                                   likely that some of the taxpayers will be unable to fully pay.
                                   However, ineffective actions on cases were allowing taxes
                                   to pyramid throughout the population at the time of our
                                   review and the amount projected is reasonable. Therefore,
                                   we did not adjust the potential outcome measures in this
                                   report.

Management Monitoring and          FY 2004 CFf Operational reviews by the SB/SE Division
Implementation of Changes          Headquarters Office and CQMS reviews have identified
Appear to Have Had a Positive      issues similar to those we identified during this audit.
Effect on Business Results         During CFf Operational reviews, Collection function
                                   management reviewed several types of cases with the major
                                   focus on general collection cases. Their reviews identified
                                   problems on cases related to initial and follow-up actions,
                                   financial analysis, enforcement actions, and monitoring of
                                   FTDs. Focus reviews were also conducted as part of the
                                   review to identify concerns and need for changes.
                                   Nationwide CQMS reviews also identified problems with
                                   setting specific dates, identifying actions to be performed by
                                   the taxpayer, warning the taxpayer of possible
                                   consequences, making timely follow-ups, having activity
                                   lapses greater than 75 days, and monitoring of FTDs
                                   (pyramiding).


                                                                                         Page 14
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                 To identify ways to improve procedures for dealing with
                                 IBTF cases, the SB/SE Division has implemented several
                                 strategies. For example:
                                 •    The collection reengineering process was designed to
                                      improve workload selection and case work quality and
                                      to reduce cycle time.
                                 •    The Collection Consultation Initiative process was
                                      designed to promote casework communication between
                                      the RO and group manager, resulting in more timely
                                      resolution of cases.
                                 •    The Collection Group Manager Handbook was
                                      published to provide procedures for case management
                                      and review, to strengthen new managerial
                                      accountability, and to promote more effective case
                                      action.
                                 We have performed audits of the Collection Consultation
                                 Initiative17 and workload selection18 process. We
                                 determined that overall effectiveness of the Collection
                                 Consultation Initiative could be improved by ensuring
                                 milestones and completion dates for required collection
                                 activities are clearly identified and case plans of action are
                                 consistently prepared. On the workload selection process,
                                 we determined that productivity results showed varying
                                 degrees of improvement after the criteria were revised. In
                                 theory, the workload selection process would allow trust
                                 fund cases to be assigned sooner, and fewer tax periods
                                 would pyramid before CFf intervention.
                                 SB/SE Division executives informed us the collection
                                 reengineering process is continuing and they are making
                                 strides in revising the compliance processes. They believe
                                 this should have a positive impact on the quality of the case
                                 work in the field. Some changes or requests for changes in
                                 the process include:


                                 17
                                    Implementation of the Collection Field Function Consultation
                                 Initiative Was Carefully Coordinated, but Some Aspects Could Be
                                 Enhanced (Reference Number 2005-30-011, dated November 2004).
                                 18
                                    The Revised Collection Case Selection Criteria That Expedites Trust
                                 Fund Workload to the Field Appears Effective (Reference
                                 Number 2004-30-173, dated September 2004).
                                                                                               Page 15
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                         •   Emphasis on explaining to ROs the purpose of the
                                             notice of Federal tax lien and improving its use
                                             when appropriate.
                                         •   Issuance of Letter 105819 on initial contact with the
                                             taxpayer only when levy or seizure is the next
                                             action. In the future, there is a potential plan for
                                             issuance of Letter 1058 on trust fund cases prior to
                                             assignment to ROs.
                                         •   Mandatory review by the group manager for the
                                             IBTF cases where taxpayers pyramided after a case
                                             was assigned.
                                         •   Requirement for ROs to not only request copies of
                                             FTD receipts but also consider verifying whether
                                             the correct amount is being deposited.
                                 Some of the changes appear to already be contributing to
                                 positive business results, such as an increase in case
                                 productivity and dollars collected and a reduction of
                                 delinquent accounts cycle time. For example, Table 2
                                 shows a 4.2 percent increase of dollars collected. Collection
                                 function management expects these positive results to
                                 continue as the SB/SE Division follows the course outlined
                                 in the FY 2005 Collection Program Letter.
                                 Table 2: Some Improvements in Dollars Collected

                                                        Dollars in            Dollars
                                      Fiscal Year
                                                        Inventory            Collected

                                      1st 6 months
                                                      5,800,843,541         886,056,502
                                        FY 2004
                                      1st 6 months
                                                      5,275,037,630         923,459,936
                                       FY 2005
                                  % Decrease/
                                                          -9.1%                 4.2%
                                   Increase
                                 Source: National Collection 5000-2 Reports – Field
                                 Function Taxpayer Delinquent Accounts.


                                 19
                                    Letter 1058 is a final notice of intent to levy and notice of taxpayer’s
                                 right to a hearing.



                                                                                                    Page 16
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Small Business/Self-Employed
(SB/SE) Division Collection Field function was effectively using the collection tools available
when working cases in which trust fund1 taxpayers pyramided2 their tax liabilities. To
accomplish this objective, we:
I.      Reviewed Internal Revenue Service (IRS) guidelines related to in-business trust
        fund (IBTF) taxpayer cases and discussed procedures with SB/SE Division management
        to determine if trend analyses were performed to identify characteristics of the delinquent
        IBTF taxpayers and how quality review results were being used and to evaluate results
        from operational reviews.
II.     Selected a sample of 223 of the most delinquent IBTF taxpayer accounts from the
        Integrated Collection System (ICS)3 to determine if collection tools were used effectively.
        A.       Using ICS, as of April 14, 2004, identified 101,698 open trust fund cases in the
                 SB/SE Division. We applied the following criteria to further define the
                 population of cases we planned to review: in-business taxpayer accounts where
                 the dollar amount of the aggregate taxpayer liability exceeded $10,000, taxpayers
                 had cases established after December 2001 and before January 2003, and
                 taxpayers had pyramided new liabilities after December 2002. This resulted in
                 11,375 IBTF taxpayers having an aggregate outstanding liability greater than
                 $10,000 on 2 or more open delinquent accounts.
        B.       Using the population of 11,375 open cases, selected a statistical sample of
                 223 cases to review. We used the following sampling criteria: a 90 percent
                 confidence level, a 30 percent estimated error rate, and a ±5 percent precision
                 rate.
III.    Reviewed 223 cases and evaluated actions taken to determine if revenue officers and
        group managers effectively used the collection tools.
        A.       Created a case review check sheet to record actions taken by revenue officers and
                 group managers.
        B.       Determined if appropriate actions were taken on first contact and throughout the
                 investigation, such as performing compliance checks, setting deadlines, following

1
  A trust fund tax is money withheld from an employee’s wages (income, Social Security, and Medicare taxes) by an
employer and held in trust until paid to the Department of the Treasury.
2
  Pyramiding involves the incurring of future additional tax liabilities.
3
  The ICS is an automated system used to control and monitor delinquent cases assigned to revenue officers in the
IRS field offices
                                                                                                        Page 17
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                  up timely, ensuring taxpayers fully understood the actions required, and
                  performing adequate asset research.
         C.       Determined if actions were timely taken, such as assigning cases to revenue
                  officers, following up, taking enforcement actions, and monitoring Federal Tax
                  Deposits.4
         D.       Determined if enforcement actions were effectively used, such as liens, levies,
                  seizures, and Letter 903 (DO).5
         E.       Determined if the IRS effectively implemented corrective actions to our previous
                  audit report6 findings.
         F.       Calculated the potential effect of our results across the population.
         G.       Discussed exception cases with SB/SE Division management to identify the cause
                  for ineffective actions.




4
  Federal Tax Deposits are advance payments made for the trust fund taxes. Generally, these payments are made
once a month, twice a month, four times a month, or eight times a month, depending upon the amount of the
quarterly liability and frequency of the payroll.
5
  Letter 903 (DO) alerts a taxpayer of the seriousness of noncompliance and explains more fully the alternatives that
can be taken if the taxpayer is still not in compliance with the trust fund tax requirements.
6
  Improvements Are Needed in Resolving In-Business Trust Fund Delinquencies to Prevent Tax Liabilities from
Pyramiding (Reference Number 2000-30-111, dated August 2000).
                                                                                                            Page 18
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                                                                Appendix II


                           Major Contributors to This Report

Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate Programs)
Richard Dagliolo, Director
Parker F. Pearson, Director
Philip Shropshire, Director
Lynn Wofchuck, Audit Manager
Doris Cervantes, Senior Auditor
Phyllis Heald, Auditor
Janis Zuika, Auditor




                                                                                      Page 19
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                               Page 20
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                                                                                    Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •    Increased Revenue – Potential; $430 million additional accruals1 (see page 4).
Methodology Used to Measure the Reported Benefit:
For our population, we identified 11,375 in-business trust fund2 cases from an extract of the
Integrated Collection System3 cases as of April 15, 2004. These cases had been open since
sometime in Calendar Year (CY) 2002, had pyramided4 during CY 2003 through April 2004, had
liabilities greater than $10,000, and had 2 or more delinquent accounts. From this population,
we selected a nationwide statistical sample of 223 cases using a confidence level of 90 percent, a
precision level of ±5 percent, and an estimated error rate of 30 percent.
Each of the 223 taxpayers in our sample accrued additional tax liabilities while the cases were
open through April 30, 2004, for a total of $8,693,905 of additional pyramided liabilities.
However, in 12 of these cases, revenue officers took all effective actions. Therefore, there were
211 (95 percent) of 223 cases that contained at least 1 of the ineffective actions described in this
report.
For these 211 cases, a total of $8,392,131 additional liabilities pyramided, resulting in an average
of $39,773 per case ($8,392,131/211). Projecting this average potential accrual per case over
10,806 taxpayers (which is 95 percent of our overall population of 11,375 taxpayers), we
estimate that approximately $430 million (10,806 x $39,773) could pyramid if revenue officers
do not take effective actions, such as enforcement actions, monitoring of Federal Tax Deposits,5
and/or timely follow-ups, on these cases. The methodology used to calculate this benefit was
discussed with an analyst in the Small Business/Self-Employed Division, Strategy, Research, and
Performance Management, Field Research function.

1
  These are projections of potential accruals, all of which may not be accrued. In addition, not all of this projected
amount would be collected due to taxpayer behavior that is out of the control of the revenue officer.
2
  A trust fund tax is money withheld from an employee’s wages (income, Social Security, and Medicare taxes) by an
employer and held in trust until paid to the Department of the Treasury.
3
  The Integrated Collection System is an automated system used to control and monitor delinquent cases assigned to
revenue officers in the Internal Revenue Service field offices.
4
  Pyramiding involves the incurring of future additional tax liabilities.
5
  Federal Tax Deposits are advance payments made for the trust fund taxes. Generally, these payments are made
once a month, twice a month, four times a month, or eight times a month, depending upon the amount of the
quarterly liability and frequency of the payroll.
                                                                                                             Page 21
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                                                                      Appendix V


                 Additional Definitions of Collection Tools and Actions

Installment Agreement – Installment agreements are arrangements whereby the Internal
Revenue Service (IRS) allows taxpayers to pay liabilities over time. During the course of an
installment agreement, penalties and interest continue to accrue.
Levy – Internal Revenue Code Section 6331 authorizes the IRS to collect taxes by levy upon a
taxpayer’s property or rights to property if the taxpayer neglects or refuses to pay the tax within
10 days after receiving a notice and demand to pay the tax. Taxpayers have appeal rights and
there is a waiting period after that 10-day period. The IRS can levy a taxpayer’s salary and
wages, bank accounts, or other money owed to the taxpayer.
Lien – A Federal tax lien is created by statute and attaches to a taxpayer’s property and rights to
property for the amount of the liability when an assessment has been made, a demand for
payment has been made, and the taxpayer has neglected or refused to pay within 10 days of
notification. The IRS files a Notice of Federal Tax Lien, which notifies people that the lien
exists.
Seizure – Seizure refers to taking a taxpayer’s property for unpaid tax. If other actions such as
liens, levies, and installment agreements have been taken to collect the delinquent taxes and the
taxpayer has not fully paid the tax due, the revenue officer has the authority to take the
taxpayer’s funds or property for the payment of tax.
Summons – A summons is an enforcement tool used by the IRS to obtain information from
either the taxpayer or third parties when the taxpayer will not produce the desired records or
other information voluntarily. A summons should be issued when the IRS is prepared to seek
judicial enforcement if the summoned party fails to fully comply.




                                                                                             Page 22
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities

                                                                        Appendix VI


                   Management’s Response to the Draft Report




                                                                              Page 23
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities




                                                                              Page 24
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities




                                                                              Page 25
The Collection Field Function Needs to Improve Case Actions to Prevent Employers From
                      Incurring Additional Trust Fund Tax Liabilities




                                                                              Page 26
